No.

In the Supreme Court of the United States
October Term 2021
TYRONE CADE,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for Writ of Certiorari
To the Court of Criminal Appeals of Texas
MOTION TO PROCEED IN FORMA PAUPERIS
JOSEPH J. PERKOVICH
COUNSEL OF RECORD
Philips Black, Inc.
PO Box 4544
New York, NY 10163
212-400-1660 (TEL.)
J.PERKOVICH@PHILLIPSBLACK.ORG

Petitioner, Tyrone Cade, asks leave to file in this Court without prepayment
of costs and to proceed in forma pauperis. To date, Petitioner had been granted
leave to proceed in forma pauperis in the last following courts:
•
•
•

In the 265th Judicial District Court of Dallas County, Cause No. F-1133962-R;
In the Texas Court of Criminal Appeals (Cade v. State, No. AP- 76,883;
Ex Parte Cade, WR-83274-02);
In the United States District Court for the Northern District of Texas,
Dallas Division, Cade v. Davis, No. cv-03396-G-BT.

Undersigned counsel is acting within their capacity as appointed counsel
under 18 U.S.C. §3599(a)(2). See id. (“[e]ach attorney so appointed shall represent
the defendant throughout every subsequent stage of available judicial proceedings,
including … applications for writ of certiorari to the Supreme Court of the United
States”). Therefore, under Supreme Court Rule 39, no affidavit is needed in support
of this motion.
WHEREFORE, Petitioner Tyrone Cade respectfully requests that this Court
permit him to proceed in forma pauperis.
Respectfully submitted this 30th of August 2021,
JOSEPH J. PERKOVICH
COUNSEL FOR PETITIONER
Philips Black, Inc.
PO Box 4544
New York, NY 10163
212-400-1660 (TEL.)
J.PERKOVICH@PHILLIPSBLACK.ORG

